APPENDIX TABLE OF CONTENTS
OPINION AND ORDER
Appendix A–Opinion of the United States Court
of Appeals for the Eleventh Circuit
(September 23, 2020).......................................... 1a
Appendix B–Order of Dismissal of the United
States District Court for the Northern
District of Florida (October 31, 2019) ............... 7a
Appendix C–Suppression Hearing Bench Ruling
Transcript (October 30, 2019) .......................... 10a
OTHER DOCUMENT
Appendix D–Probable Cause Affidavit of the
Jefferson County Sheriff’s Office
(November 14, 2014) ........................................ 18a

App.1a
APPENDIX A–
OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE ELEVENTH CIRCUIT
(SEPTEMBER 23, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
RICHARD B. “RICK” SPINNENWEBER
and CHRIS SPINNENWEBER,

Plaintiffs-Appellants,
v.
DAN WILLIAMS,

Defendant-Appellee.
________________________
No. 19-14489
D.C. Docket No. 4:18-cv-00515-RH-CAS
Appeal from the United States District Court
for the Northern District of Florida
Before: JORDAN, NEWSOM, and
GRANT, Circuit Judges.
PER CURIAM:
Plaintiffs Richard and Chris Spinnenweber brought
this action against defendant Dan Williams under 42
U.S.C. § 1983, alleging both false arrest and malicious
prosecution. The district court dismissed the complaint

App.2a
for failure to state a claim. The Spinnenwebers appeal
that decision. We affirm.
I.
The events giving rise to this case began in 2014.
Detective Dan Williams responded to an accusation
that the proprietors of a campground—Richard, Chris,
and their now-deceased father—had stolen a truck.
Accompanied by the alleged victim, he and another
detective went to the campground. The responses the
officers received from the Spinnenwebers and other
campground personnel about the truck were inconsistent. With further investigation, Williams located
the truck in a storage shed and found that the truck
bed had been repainted to gray and that the tail
lamps had been removed.
Williams filled out a probable cause affidavit
describing the visit to the campground. The affidavit
form shows that Williams was requesting an arrest
warrant for two charges: (1) grand theft of a motor
vehicle, and (2) resisting or obstructing without
violence. Florida Statutes § 812.014 states that a
“person commits theft if he or she knowingly obtains
or uses, or endeavors to obtain or to use, the property
of another with intent to, either temporarily or permanently” deprive “the other person of a right to the
property or a benefit from the property” or appropriate
“the property to his or her own use or to the use of
any person not entitled to the use of the property.”
Fla. Stat. § 812.014. Furthermore, it “is grand theft
of the third degree and a felony of the third degree” if
the stolen property is a “motor vehicle.” Fla. Stat.
§ 812.014(2)(c)(6) (2014). And Florida Statutes § 843.02
sets out a first degree misdemeanor for anyone who

App.3a
“shall resist, obstruct, or oppose” a law enforcement
officer “without offering or doing violence to the person
of the officer.” Fla. Stat. § 843.02 (2014).
A state judge issued the requested warrant, and
the Spinnenwebers were charged with grand theft of
a motor vehicle and resisting an officer without
violence. The charges were eventually dismissed when
the State filed a nolle prosequi. The Spinnenwebers,
not satisfied, sued various parties involved in their
arrests. They whittled down the targets of their suit,
ultimately bringing 42 U.S.C. § 1983 claims for deprivation of civil rights and malicious prosecution against
Detective Williams.
The Spinnenwebers apparently do not dispute
the facts that Williams alleged in the affidavit. Instead,
they argue that Williams did not include enough in
the affidavit. The two issues center around (1) their
contention that the dispute over the truck was civil
in nature rather than criminal, and (2) the fact that
the truck was returned. On the civil-or-criminal point,
they claim that Williams told them that “we are
trying to resolve this as a civil matter. Don’t make it
worse on yourself. Believe me.” The Spinnenwebers
argue that the warrant should have been clear that
this “‘civil’ dispute over the amount of a storage fee
had been resolved.” As to the return of the truck,
they say that the affidavit should have noted that
Williams was “instrumental” in the return of the
truck in exchange for payment of storage fees. According to the Spinnenwebers, these omissions were “false,”
“misleading,” and “material.”
The district court disagreed, and entered an order
of dismissal on both counts, explaining that a finding
of probable cause was “fatal” to the Spinnenwebers’

App.4a
claims. The district court found that because the
information that the Spinnenwebers claim should
have been included in the affidavit was—at best—
”immaterial,” the Spinnenwebers’ claims did not refute
that the warrant showed probable cause for their
arrest. The Spinnenwebers now appeal.
II.
“We review de novo the district court’s grant of a
motion to dismiss under 12(b)(6) for failure to state a
claim, accepting the allegations in the complaint as
true and construing them in the light most favorable
to the plaintiff.” Hill v. White, 321 F.3d 1334, 1335
(11th Cir. 2003) (per curiam) (citation omitted).
III.
A.
The district court and Detective Williams characterize the Spinnenwebers’ first count as a false
arrest claim; the Spinnenwebers do not dispute this
characterization. We affirm the district court’s holding
that this claim fails. Recently, in Williams v. Aguirre,
we noted that a “claim of false arrest or imprisonment
under the Fourth Amendment concerns seizures
without legal process, such as warrantless arrests.”
965 F.3d 1147, 1158 (11th Cir. 2020) (citation omitted).
The fact that a state judge issued a warrant in this
case thus extinguishes the Spinnenwebers’ false arrest
claim. Any objection they have must necessarily be
towards the legal process, rather than the absence of
legal process. We now turn to that question.

App.5a
B.
Unlike a claim of false arrest, a claim of malicious
prosecution “requires a seizure pursuant to legal
process.” See id. (quotation marks and citations omitted).
In order to establish malicious prosecution, the
Spinnenwebers must show that the legal process “was
constitutionally infirm.” Id. at 1165. In the context of
an arrest warrant, they can do so if they establish
“either that the officer who applied for the warrant
should have known that his application failed to
establish probable cause, or that an official, including
an individual who did not apply for the warrant, intentionally or recklessly made misstatements or omissions
necessary to support the warrant.” Id. (citations
omitted). To put a finer point on this inquiry, we
consider whether a “misstatement in an officer’s
warrant affidavit amounts to a violation of the Fourth
Amendment” through a two-part test: (1) “we ask
whether there was an intentional or reckless misstatement or omission,” and (2) “we examine the materiality
of the information by inquiring whether probable
cause would be negated if the offending statement
was removed or the omitted information included.”
Paez v. Mulvey, 915 F.3d 1276, 1287 (11th Cir. 2019)
(citations omitted).
The Spinnenwebers’ claim fails on that second
part of our inquiry. It does not matter that the
Spinnenwebers returned the truck. Florida law
criminalizes “endeavors” of theft, as well as theft for
a temporary time; that means it is irrelevant that
the Spinnenwebers eventually returned the truck to
its rightful owners. Fla. Stat. § 812.014 (2014). And
in any event, the fact that the truck was returned to
its owners has no bearing on everything that happened

App.6a
before that point. Nor does the fact that Williams
referred to resolving the case as a “civil matter” have
any bearing on probable cause. Finally, none of the
Spinnenwebers’ allegations do anything to cure the
conduct that gave rise to the resisting-justice charge.
In short, none of the omitted information relates to
the elements of the crimes for which probable cause
was found.
In every case, there are a multitude of facts. Some
affect the existence of probable cause and others do
not. The facts that the Spinnenwebers claim Detective
Williams omitted from his probable cause affidavit
fall into the latter category. The district court’s judgment is AFFIRMED.

App.7a
APPENDIX B–
ORDER OF DISMISSAL OF THE
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
(OCTOBER 31, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
________________________
RICHARD B. “RICK” SPINNENWEBER
and CHRIS SPINNENWEBER,

Plaintiffs,
v.
DAN WILLIAMS,

Defendant.
________________________
Case No. 4:18cv515-RH-CAS
Before: Robert L. HINKLE,
United States District Judge.
This case arises from the plaintiffs’ arrest and the
filing of criminal charges that were later dropped.
The plaintiffs assert the arrest and filing of charges
were unconstitutional, but they were not. As set out
on the record of the hearing on October 30, 2019,
there was probable cause to believe the plaintiffs had
committed the charged crime. This is fatal to the
plaintiffs’ claims.

App.8a
At one time or another during the litigation, the
plaintiffs have named nine defendants. The original
complaint named six defendants: Mac McNeil, Dan
Williams, Dustin Matthews, Gerald Knecht, Jennifer
Roysdon, and Jay Roysdon. The amended complaint,
filed as of right, dropped the claims against all of the
original defendants except Mr. Williams. And the
amended complaint added three new defendants: Bill
Bullock, Logan Wilcox, and Dorian Bradley. The
plaintiffs voluntarily dismissed their claims against
Mr. Bullock, Mr. Wilcox, and Mr. Bradley. Judgment
in their favor was entered under Federal Rule of
Civil Procedure 54(b). That left the case pending only
against Mr. Williams.
Mr. Williams moved to dismiss. At a hearing on
October 30, 2019, the plaintiffs acknowledged that
for purposes of the motion to dismiss, Mr. Williams’s
probable-cause affidavit and the warrant issued by a
state judge based on that affidavit could properly be
considered. The plaintiffs have not alleged that the
information in the affidavit was untrue. The plaintiffs
do assert that other information was omitted from
the affidavit, but the information was either included
in the affidavit or immaterial. The complaint and
properly considered documents show that the state
judge properly issued an arrest warrant. And with or
without a warrant, the complaint and properly considered documents show that there was probable cause for
the plaintiffs’ arrest. Probable cause is a complete
defense to the plaintiffs’ claims. See Brown v. City of
Huntsville, 608 F.3d 724, 734 (11th Cir. 2010).
For these reasons and those set out at greater
length on the record of the October 30 hearing,

App.9a
IT IS ORDERED:
1.

The motion to dismiss, ECF No. 35, is granted.

2.

The clerk must enter judgment under Federal Rule of Civil Procedure 58 stating, “The
claims of the plaintiffs Richard B. “Rick”
Spinnenweber and Chris Spinnenweber
against the defendant Dan Williams are
dismissed with prejudice. Any remaining
claims against Mac McNeil, Dan Williams,
Dustin Matthews, Gerald Knecht, Jennifer
Roysdon, and Jay Roysdon are dismissed.”

3.

The clerk must close the file.

SO ORDERED on October 31, 2019.
/s/ Robert L. Hinkle
United States District Judge

App.10a
APPENDIX C–
SUPPRESSION HEARING
BENCH RULING TRANSCRIPT
(OCTOBER 30, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
________________________
RICHARD B. “RICK” SPINNENWEBER
and CHRIS SPINNENWEBER,

Plaintiffs,
v.
DAN WILLIAMS,

Defendant.
________________________
Case No. 4:18cv515-RH-CAS
Before: Hon. Robert L. HINKLE,
United States District Judge.
IN CHAMBERS
THE COURT: Good morning. This is Judge Hinkle.
I’ve read all of your papers and the record. I think
I’m familiar with where things stand. I’ll hear
from you briefly, and I’ve got a couple of questions.
Mr. Carson, your motion, I’ll let you go first.
MR. CARSON: Thank you, Your Honor. Matt Carson
for Defendant Dan Williams.

App.11a
As we outlined in our motion, Your Honor, plaintiffs have brought a false arrest claim under 1983
and a malicious prosecution claim under 1983
against Lieutenant Dan Williams in his individual
capacity.
The false arrest claim fails for a few reasons:
One, Lieutenant Williams did not arrest either one
of these plaintiffs. They were arrested pursuant
to a warrant that was secured as a result of a
probable cause affidavit that was submitted to
the Jefferson County Court by Lieutenant
Williams, but he did not physically arrest them.
There’s no allegation that he was even present
during their arrest, and their arrest was pursuant
to a warrant that was, despite plaintiffs’ assertions
to the contrary, was a valid process. So, accordingly, the false arrest claim fails for those reasons.
As it relates to the malicious prosecution claim,
plaintiff alleges—plaintiffs allege—excuse me—
that the probable cause affidavit is fraudulent
because it omits information; specifically, in their
complaint, in their third amended complaint as
well as in their response to the Motion to Dismiss,
the only information they allege should have been
included in the probable cause affidavit but was
not was that the Roysdons, the alleged victims in
this case, paid the storage fee and ultimately
retrieved their vehicle.
I would first suggest that that’s not actually omitted from the probable cause affidavit, although I
will acknowledge that it’s not abundantly clear on
its face. In the probable cause affidavit on the last
page—and this is part of Document 35-1 that was

App.12a
attached as a composite exhibit to the Motion to
Dismiss—it states that the plaintiffs—I’m sorry—
the Roysdons agreed to pay for the vehicle
storage. The vehicle was located, and at the end,
the very last paragraph of the probable cause
affidavit, Lieutenant Williams states that it
appears to him at least that the Spinnenwebers
all conspired to keep the Roysdons from obtaining
their property for 12 days in an attempt to keep
the vehicle for the family business permanently.
And, again, acknowledging that that’s not abundantly clear that they were, you know, ultimately
drove—the Roysdons drove off the campground
with their truck on that day, I don’t think that it
was an omission, and I don’t think it was Lieutenant Williams attempting to hide that fact from the
magistrate. He states that they were deprived of
the use of their vehicle temporarily for a period of
time, and that is sufficient to meet the elements of
theft under Florida. It doesn’t require a permanent
deprivation. It only requires a temporary deprivation. That’s the only omission or falsity that the
plaintiffs have identified in the probable cause
affidavit; and, accordingly, even if that information
would have been more clear in the probable
cause affidavit, I would suggest—and we argue
—that the judge still would have signed the
warrant for the arrest of the Spinnenwebers, and
that probable cause still would have existed for
both of the charges for which the warrant was
issued.
THE COURT: All right. Thank you.
Mr. Printy?

App.13a
MR. PRINTY: Well, Your Honor, I guess there’s a
couple things that would be mistakes in there that
we didn’t point out, not that they, you know, they
identified—Mr. Williams or Detective Williams
identifies October 28th as a Sunday when it was
a Tuesday; and he says 12 days, when even on
their own thing it was nine days, but I don’t think
that really mattered.
But I do think the issue at all times, you know,
the Spinnenwebers were under the impression in
their dealings with Detective Matthews—Deputy
Matthews, who came out first to investigate when
the Roysdons called this in, that it was a civil
matter, and it was just a function of paying the
bill.
The lady came out there—Ms. Roysdon came out,
talked to the dad on a Sunday night. He said, we’re
closed, come back tomorrow, and we’ll deal with
this. That was November 2nd. We didn’t put that—
that’s not in the complaint, but that’s what happened. They didn’t come back—
THE COURT: Well, let’s get this in proper sequence
to start with. First, is it okay for me to consider
the warrant and the affidavit on the Motion to
Dismiss?
MR. PRINTY: Yes. I mean, that’s what—
THE COURT: All right. And the complaint doesn’t say
there is a single word that is untrue in the affidavit. That’s correct; isn’t it?
MR. PRINTY: Yes. It says withheld information.

App.14a
THE COURT: So doesn’t the affidavit establish probable cause to believe that the plaintiffs committed
theft?
MR. PRINTY: Well, I don’t think he ever says in there
that, having paid the money they owed, they were
refused their car.
THE COURT: They showed up. The people denied that
the car was on the property. They acted like
they’ve never seen it before. They didn’t turn over
the car. You don’t think that’s theft?
MR. PRINTY: No. I would say they were required to
pay, they agreed to pay, they were required to pay.
THE COURT: So somebody leaves the car, makes a
deposit, arranges to have the car stored there for
five months. They come back and the guy says,
never saw you before, don’t have your truck, think
we took it ‘cause we tried to call you, and we
couldn’t get you, we don’t know what you’re talking
about, the truck is not here. Then they show—the
woman shows up, punches her key and the horn
starts beeping in the closed storage area. You
don’t think that’s probable cause to arrest them
for theft?
MR. PRINTY: No. I mean, it’s not clear who she’s talking to. I mean, I guess you could say that, if the
lady is lying about things, that misled the police
officer, but I still think a judge would want to—
that it had been represented to them during this
entire thing that it wasn’t a criminal case and—
THE COURT: Why does that matter? If the cop—if
the officer says, look, I’d like to resolve this as a
civil matter, give the woman back her car; and

App.15a
the guy still doesn’t do it or it doesn’t work out,
you think that somehow the officer’s actions have
waived the right of the state of Florida to charge
him for the crime he committed?
MR. PRINTY: No, I don’t think so. I mean—
THE COURT: Let me ask you another question. Why
does a warrant make any difference at all? If there
was probable cause, the arrest did not violent the
Fourth Amendment whether there was a warrant
or not. Isn’t that true?
MR. PRINTY: Yes.
THE COURT: So, if I read the affidavit and I say that’s
probable cause even when I consider the additional facts that you say should have been in it,
you lose the case, right?
MR. PRINTY: Yes.
THE COURT: All right. I interrupted you. You can tell
me anything else you wish.
MR. PRINTY: Your Honor, that’s all I have.
THE COURT: All right. Mr. Carson, anything further?
MR. CARSON: Not unless Your Honor has any questions.
THE COURT: I don’t.
I’m going to grant the motion. The affidavit sets
out facts that are plainly sufficient to establish
probable cause. The plaintiff hasn’t contested those
facts. The allegation is that there was information that was withheld; that Mr. Williams in his
affidavit did not say that he had been instrumental
in the transaction under which the Roysdons

App.16a
got their car back. But fairly read, the affidavit
does suggest that they got their car back, and
whether he had a part of arranging that or not is
not material to the probable cause issue.
The other alleged omission is that Mr. Williams
had said this was a civil dispute. It was a civil
dispute. It was also a crime. When a person willfully shoots another person, it’s both a tort and a
crime. The fact that something is a civil matter
doesn’t mean it’s not a criminal matter. In any
event, the fact that the officer described it as a
civil matter at one point does not mean that, if a
crime was committed, it could not be charged.
There’s a good bit of additional information in the
affidavit. There was probable cause without it, but
of note, information in the affidavit that’s not been
denied is that the truck was being driven around
the property; the Spinnenwebers denied that it
was there; some indication it was being painted.
Abundant indication that they may have been in
the process of stealing the vehicle.
So there was probable cause, and that’s a complete
defense to the claims asserted in the complaint.
One of the counts seemed to me possibly to suggest
that there was unlawful entry into the premises to
make the arrest. It’s a place of business, apparently
open to the public. So there wouldn’t be any basis
to assert that the officers going there was improper.
In any event, when there is a warrant to arrest a
person, and there’s good ground to believe that the
person is at the premises, the officers can enter
the premises to effect the arrest. There’s a long
line of cases that establish that, and coincident-

App.17a
ally the Eleventh Circuit issued an opinion just
yesterday that confirmed that. That was United
States versus Ross.
The bottom line is that the defense is entitled to
prevail on the Motion to Dismiss. I’ll enter a brief
order granting the motion.
Thank you both.
Anything else, Mr. Printy?
MR. PRINTY: No, Your Honor.
THE COURT: Mr. Carson?
MR. CARSON: Your Honor, just quickly. Is that motion
or is that order granting the Motion to Dismiss
with prejudice?
THE COURT: Yes.
MR. CARSON: Thank you, Your Honor.
THE COURT: Thank you. We’ll be in recess.
(The proceedings concluded at 11:14 a.m.)
[***]

App.18a
APPENDIX D–
PROBABLE CAUSE AFFIDAVIT OF THE
JEFFERSON COUNTY SHERIFF’S OFFICE
(NOVEMBER 14, 2014)
ADMINISTRATIVE
OBTS Number: 3302002097
Agency ORI Number: FLO330000
Agency Name: Jefferson County Sheriff’s Office
Location of Office: 346 KOA Rd
Agency Report Number: 14003210
Request for Capias
Juvenile: N
DEFENDANT
Name: Spinnenweber Richard B
Race: White
Sex: Male
Date of Birth or Age: xxxxx 55
Height: 510
Hair Color: BRN
Complexion: LT
Build: THN
Address: 346 KOA Road, Monticello, FL, 32344
Phone: (850) 997-3890
CHARGE
Charge Description: Grand Theft Mot
Counts: 1;
F.S.
Status Violation Number: 812-014-2C6
Activity: N/A;
Drug Type: N/A
Court Number: 14-165CFA

App.19a
Charge Description: Resist W/O V Obstruction
Counts: 1;
F.S.
Status Violation Number: 843-02
Activity: N/A;
Drug Type: N/A
PROBABLE CAUSE STATEMENT
The undersigned certifies and swears that he/she
has just and reasonable grounds to believe, and does
believe that the above named Defendant committed
the following violation of law.
On the 28 day of October 2014 at 2045
P.C. Exists for Charge(s) – YES
/s/ {Illegible}
Judge’s Signature
Date: 11/12/14

App.20a
ADMINISTRATIVE
OBTS Number: 3302002097
Agency ORI Number: FLO330000
Agency Name: Jefferson County Sheriff’s Office
Agency Report Number: 14003210
Location of Office: 346 KOA Rd
Request for Capias: 5
Juvenile: N
DEFENDANT
Name: Spinnenwbbbr, Chris W. Alias: CW
Race: White
Sex: Male
Date of Birth or Age: xxxxx 52
Height: 508
Hair Color: BLN
Complexion: LT
Build: MED
Address: 346 KOA Road, Monticello, FL 32344
Phone: (850) 997-3890
CHARGE
Charge Description: Grand Theft Mot
Counts: 1;
F.S.
Status Violation Number: 812-014-2C6
Activity: N/A;
Drug Type: N/A
Court Number: 14-165CFA
Charge Description: Resist W/O Obstruction
Counts: 1;
F.S.
Status Violation Number: 843-02
Activity: N/A;
Drug Type: N/A

App.21a

PROBABLE CAUSE STATEMENT
The undersigned certifies and swears that he/she
has just and reasonable grounds to believe, and does
believe that the above named Defendant committed
the following violation of law.
On the 28 day of October 2014 at 2045
P.C. Exists for Charge(s) – YES
/s/ {Illegible}
Judge’s Signature
Date: 11/12/14

App.22a
JEFFERSON COUNTY SHERIFF’S OFFICE
171 Industrial Park
Monticello, Florida 32344
David C. Hobbs, Sheriff
Case: #14003210
Date: 11/06/2014
Ref: Grand Theft Motor Vehicle, Resisting Without
Violence, Obstruction of Justice
Suspect(S): Richard (Dick) P Spinnenweber,
Richard B Spinnenweber,
Chris W Spinnenweber
11/06/2014
On the above date, I Inv. Dan Williams met with
Jay and Jennifer Roysdon at the Jefferson County
Sheriff’s Office to interview them about their stolen
vehicle they reported on 10/28/2014.
Jennifer told me that on their way to see me, her
and Jay drove to the KOA and pushed the keyless
remote button for their truck they reported stolen on.
A horn from inside a storage unit began honking.
She pushed the button again, and it quit honking.
The storage unit is on KOA property, and belongs
to Richard P. Spinnenweber (aka “Dick”.) According to
the Roysdon’s, they rented a lot at the campground for
a while. Jay is a seasonal fisherman in California,
and Jennifer has some family in Tallahassee, so they
stay at the KOA during Jay’s off season. They made
a verbal agreement with Chris Spinnenweber (Dick’s
son, who is also the maintenance man, and keeps the
keys to all storage units.) to leave their black, gray
with red rear quarter panels, Ford F150 with until they

App.23a
returned. Jennifer left a $50 deposit with Chris, and
agreed to pay the KOA listed storage fees upon their
return. They gave the truck keys to the campground
manager James Henderson (aka “Jimbo”) and parked
in an outside storage parking space. Jimbo said he
has lived at the KOA for a few years, and works at
the KOA to work off rent.
All parties involved believe the Roysdon’s left the
KOA sometime around May 2014. On Sunday, 10/28/
2014, the Roysdon’s returned to pay their storage fees,
and get their truck and other personal belongings left
in storage. (They found a place to live closer to family
in Tallahassee). Jennifer spoke with Chris and Dick
Spinnenweber, and was treated as if they never met.
She was later that day told by Jimbo that Dick demanded the keys from him, and he does not know where
the truck was anymore.
D/S Dustin Matthews was dispatched to the KOA
because of this incident. He spoke with Richard B Spinnenweber (Rick) (Dick’s other son, who manages the
front desk, and handles the renting and payment for
camp lots, and storage units.) Rick said they tried to
contact Jennifer, but her number was disconnected, and
that they never received any payment for storage. He
said he thinks they took the truck for payment of the
storage unit.
D/S Matthews spoke with Jimbo. He said he moved
the truck from outside storage to inside storage. Dick
demanded the keys, and told Jimbo the truck had to
go. Jimbo said they attempted to make contact with
Jennifer, but were not able to, so Jimbo gave Dick the
keys. Jimbo told D/S Matthews he believed the truck
was still on the property.

App.24a
Chris Spinnenweber told D/S Matthews that he
did not have an agreement with Jennifer or Jay, nor
did the KOA receive a $50 deposit for storage. He said
Jennifer did leave the truck, but he does not know
what happened to it.
11/06/2014
Lt. Gerald Knecht and I followed the Roysdon’s
back out to the KOA. Jennifer again pushed the button
on her keyless remote, and a horn began honking
from inside unit 37. We walked inside the main office,
and spoke with Rick. We introduced ourselves, and
told him why we were there. Rick became very angry
and began yelling at us. He told me there is nothing
to discuss, and we had no right to bother him with
this issue.
We explained to Rick that we knew the truck was
on the property, and that the owners were wanting
to pay for their storage, and get their truck. Rick
refused to allow them to pay for the vehicle. I went
over to unit 37, and met Jimbo and his girlfriend Dana
Boucher. Jimbo wrote me a sworn statement explaining that he tried to contact Jennifer for 2 or 3 days and
was not able to. Rick wanted the keys to the truck, so
either he or his girlfriend Dana Boucher turned over
the keys.
Dana also wrote me a sworn written statement
explaining that Jennifer gave her and Jimbo the keys
when they left town around June, and that management wanted the keys turned in. She gave the keys
to Rick, and sometime after that, saw Dick driving it
around the property.

App.25a
After it became obvious that we knew the truck
was on the property, Rick told Lt. Knecht that they
tried to get the information to have the Roysdon’s
“Served”. There is no record at the Jefferson County
Courthouse, or the Jefferson County Sheriff’s Office
that an attempt to serve the Roysdon’s was ever made.
Lt. Knecht told Dick ‘We are trying to get this
vehicle out of your storage unit, but no one is wanting
to talk to us”. Dick told Lt. Knecht “Well if someone
owed you money, you wouldn’t want to talk either”.
About 30 minutes later, Jimbo walked up to us and
handed over a hand written bill (Not from a computer
like all the other bills) saying the Roysdon’s owed $385
for 5 months of storage fees on the truck in unit #09
(Not 37), $525 on storage fees for mini storage for
personal belongings in unit #14 (Not 28 where they
had their belongings), and $650 for May’s rent.
The Roysdon’s said they were trying to come to
this conclusion on 10/28/2014 and pay whatever was
owed, but were told the truck was not there. Chris
and Dick even went as far as pretending to not know
the Roysdon’s. They were very upset about being
deprived of their vehicle for 12 days, and being lied
to by the owner, and by Chris. This vehicle is one of
the few possessions the Roysdon’s own.
After they agreed to pay for the vehicle storage,
Rick left the office, and called me on the office phone
about 20 minutes later. He told me it didn’t matter if
they were paying, he still refused to open the unit. I
explained to him the truck was considered stolen (It
had been entered in NCIC as stolen on 10/28/2014),
and he was in possession of it, and he still refused. I

App.26a
spent about 20 minutes explaining to Rick that he was
obstructing justice. Rick never came back.
Chris Spinnenweber drove up to the storage units
about 20 minutes later, and unlocked unit 37 as I was
walking back to the units from the office. Lt. Knecht
and I never mentioned the unit number, but Chris
opened the correct unit on the first try.
I began photographing the truck inside unit 37.
I noticed the tail lamps had been removed, and there
was painters tape on the edges of the bed (Supposed
to be red). I saw that the bed had been repainted to
gray, and there seemed to have been a couple coats of
gray paint on the bed. It became obvious that the
truck was in the process of being repainted to hide
distinguishing characteristics like the red quarter
panels on it. The camper shell had been removed, and
there were still screw holes in the bed rail from
where the shell had been. The paint was still slightly
sticky, suggesting the last coat was applied recently.
There were dried tire tracks made from mud on the
concrete floor. These tire tracks resemble the tread
on the truck tires, suggesting it had been in and out
of the storage unit recently. I ran the VIN number
through dispatch, and it was confirmed as stolen.
Julianne Salancy began her shift during our visit
to the KAO. She works part time at the office. She
explained to us that unit 37 was listed as empty, and
had never been in the Roysdon’s name. She explained
to us that when a unit is rented, the storage fee, and
the amount owed is always put in the computer and
is easily retrievable. Rick who had been working at
this establishment for years, and is trusted with
managing the office, was never able to find the actual
bill on the computer system. He continued to act

App.27a
confused on how to operate the system. We asked him
what the storage unit prices where, and he said he
didn’t know. Rick made every attempt to hide this
vehicle from D/S Matthews, Lt. Knecht, and myself.
He was never able to produce a legitimate bill for the
storage.
Dick acted like he didn’t know anything about this
when confronted by Jennifer, but then was driving
the truck around sometime in October. Then he told
Lt. Knecht they owed money for it.
Due to the constant lying and changing of stories,
along with the truck being repainted, it appears
Chris, Rick, and Dick Spinnenweber all conspired to
keep the Roysdon’s from obtaining their property for
the 12 days in an attempt to keep the vehicle for the
family business permanently.
/s/ Dan Williams

App.28a
STATE ATTORNEY’S OFFICE WARRANT REVIEW
Name: Richard B. Spinnenweber
Agency No. 14-3210
To Issuing Magistrate
The State Attorney’s Office has reviewed the
attached Probable Cause Affidavit and hereby forwards
it to the Court for a PROBABLE CAUSE REVIEW.
The State Attorney’s Office would request that
the Court set the following conditions on Pre-Trial
Release upon the finding of Probable Cause:
Recommended total bond 2,500.00 + 500
No Contact with Jay and Jennifer Roysdon
/s/ {Illegible}
Assistant State Attorney
Received: 11/12/14
Returned: 11/12/14

App.29a
STATE ATTORNEY’S OFFICE WARRANT REVIEW
Name: Chris Spinnenweber
Agency No. 14-3210
To Issuing Magistrate
The State Attorney’s Office has reviewed the
attached Probable Cause Affidavit and hereby forwards
it to the Court for a PROBABLE CAUSE REVIEW.
The State Attorney’s Office would request that
the Court set the following conditions on Pre-Trial
Release upon the finding of Probable Cause:
Recommended total bond 2,500.00 + 500
No Contact with Jay and Jennifer Roysdon
/s/ {Illegible}
Assistant State Attorney
Received: 11/12/14
Returned: 11/12/14

